NATIONAL CREDIT UNION ADMINISTRATION

      OFFICE OF INSPECTOR GENERAL



    YEAR 2000 WAIVER PROCESS REVIEW
          REPORT NUMBER 992




               March 31, 1999




        _______________________________

             FRANK THOMAS
           INSPECTOR GENERAL
                     TABLE OF CONTENTS

                                         PAGE

INTRODUCTION                              1

BACKGROUND                                1

OBJECTIVES                                1

SCOPE AND METHODOLOGY                     2

OBSERVATIONS                              2
    Waiver Actions Justified              2
    Lack of Documented Follow-up          3
    Lengthy Waiver Process                4
    FISCUs Need Increased Attention       5

MATTERS FOR CONSIDERATION                 5
                               OIG Year 2000 Waiver Process Review




   Introduction          This is the first of the Office of Inspector General’s (OIG) series of
                         reports addressing the Year 2000 (Y2K) computer problem as it relates
to the National Credit Union Administration (NCUA) and federally insured credit unions
(FICUs). Because of the time critical nature of the Y2K problem, and in order to provide the
NCUA Board with timely information, we are not making formal recommendations or asking for
a written response. Rather, we are offering certain suggested actions as matters for consideration
by the NCUA Board and agency management.

Other Y2K reviews in process include an independent assessment of NCUA’s internal systems
and project management; and a review of FICUs progress in meeting the renovation phase
milestone established by NCUA. Additional planned Y2K work includes reviews of the credit
union quarterly reporting requirement; vendor status; and high risk credit unions.



     Background             The NCUA, in addressing potential Y2K problems in federally insured
                            credit union information systems, adopted milestone dates for credit
unions to accomplish specific Y2K tasks. The purpose of the milestone dates was to ensure credit
union information systems were ready to function in a timely manner. Benchmark milestone
dates were developed to address awareness, assessment, renovation, validation/testing, and
implementation phases. In early 1998, NCUA established a policy of providing waivers or
extensions to the milestone dates. In specific instances such as converting from one information
system to another, or vendor and credit union lack of ability to meet the milestone dates because
of system renovation. Waivers and extensions have been granted for individual credit unions and
blanket waivers for some credit unions with common information system vendors. If credit union
remediation efforts were not performed in a timely manner in accordance with the milestone dates
and waivers, the NCUA could take administrative action against the credit union because of
unsafe and unsound practices.

The overall objective of our review was to evaluate NCUA’s efforts in monitoring and assisting
federally insured credit unions to address Y2K date compliance through the waiver process. Our
review emphasized the justification for the waiver and agency follow-up during and after the
waiver period ended.

     Objectives        The specific objectives of our review were to determine if NCUA had
                       adequate justification for granting credit union Y2K compliance
waivers, and whether NCUA is exercising timely and appropriate waiver follow-up.




                                                1
                                OIG Year 2000 Waiver Process Review




                                       Our review scope included agency Y2K waiver activities
   Scope and Methodology               for federally insured credit unions. The review was
                                       performed at the NCUA Office of Examination and
Insurance; and Region II (Alexandria, Virginia), Region III (Atlanta, GA), and Region V (Austin,
Texas). Our review was performed during December 1998 through March 1999. Because of the
limited review scope and our desire to provide NCUA management with timely information, we
followed the President’s Council on Integrity and Efficiency Quality Standards for Inspections
with the exception of the standards for fraud and other illegal acts and follow-up.

We performed the following procedures to meet our review objectives:
• Interviewed certain central and regional office staff.
• Reviewed Central Office and regional waiver process guidance and procedures.
• Reviewed a sample of thirty-five (29 percent) waivers from universe of one hundred twenty-
   two waivers granted at the time of our review for Regions II, III, and V. Our review focused
   primarily on the completion of the renovation phase with an NCUA benchmark milestone date
   of January 31, 1999.

                            REVIEW OBSERVATIONS
As a result of our review we observed that waiver actions were justified; there was a lack of
documented follow-up actions; the waiver process was lengthy; and additional attention may be
needed for federally insured state chartered credit unions.

                                     Our review of thirty five waiver actions in Regions II, III,
  Waiver Actions Justified           and V, indicated that the reasons given for the
waiver/extension request were valid and the action approved was justified. The waiver request
documentation submitted by the credit union and/or examiner was sufficient to warrant the
approval of the waiver or extension of the milestone date. The primary reasons for waiver
requests were institutions converting from one information system to another or upgrading their
current system. Most identified issues were beyond the control of the credit union. In most
instances the examiner indicated that credit union management had the ability to complete the
conversion/upgrade and could meet succeeding milestone dates.

We evaluated NCUA guidance and practices regarding the waiver process focusing on the
adequacy of guidance in preparation of the waiver; and the reasonableness of justification for the
waiver request and approval. In addition, we evaluated the timeliness of agency approval;
monitoring of credit union status; and follow-up of the waiver/extension approval.

The December 1998 agency Readiness Report indicated the agency had received 287
waivers/extensions from the approximate 11,000 federally insured credit unions.
Waiver/extension request volume increased significantly in the months of January and February
1999, when NCUA received an additional 150 requests for a total of 437 indicated in the
February 1999 Readiness Report.


                                                 2
                                 OIG Year 2000 Waiver Process Review




  Lack of Documented Follow-up             In the majority of cases in our review (more than
                                           70 percent) we found limited evidence of
documented follow-up and monitoring of existing waiver actions by examiner and regional office
staff. However, when we performed follow-up with staff we found that some follow-up was
being performed.

In a limited number of instances (17 percent) in our review sample we found inconsistent
recommendations for removal of outstanding waiver or extension actions. In some cases if the
action was substantially complete the examiner recommended removal of the action, while in
others the action was completed prior to removal. In one instance two examiners were
responsible for the same credit union (district responsibility was in transition) with one examiner
recommending removal of an action because the work was substantially completed, while the
other examiner did not recommend removal of the action.

In most instances, responsibility to determine Y2K readiness in individual credit unions and any
necessary follow-up is the responsibility of the district examiner to whom the credit union has
been assigned. Prior to the 4th quarter 1998, examiners performed Y2K review procedures
contained in Y2K program fiscal year 1998 exam requirements during the financial examination
and during other contacts at credit unions.

Examiners began using the Federal Financial Institution Exam Council (FFIEC) Year 2000
Workprogram Phase II (workprogram) in the fourth quarter 1998 examinations. The FFIEC
workprogram provides examination procedures that help the examiner to determine if the credit
union has addressed the Y2K problems inherent in many computer software, hardware, and
environmental systems as well as indirect risks associated with external sources, customers, or
fiduciary activities. The examination procedures are designed to focus on the adequacy of the
credit union’s plans and processes for achieving Y2K readiness, with particular emphasis placed
on the final phases of the Y2K project. The program includes specific benchmark dates that the
credit union must meet.

NCUA staff do not perform testing of information systems to ensure Y2K readiness in credit
unions. Each calendar quarter the examiner receives a hardcopy status report from assigned
credit unions indicating the status of Awareness, Assessment, Renovation, Testing, and
Implementation phases for critical and non-critical information systems. The examiner would
review, input and upload the information to the agency database. The quarterly information is
reviewed by the Y2K specialist for apparent completeness and then the information is forwarded
to E&I.

The examiner uses information developed during contacts, examinations, and information supplied
by the requesting credit union to develop the waiver/extension documentation package. E&I
developed a checklist for examiner and regional office use in developing the waiver package. In
addition, regions developed clarification guidance. The E&I checklist were not required in the
documentation for the waiver as long as all identified issues were addressed.



                                                 3
                                 OIG Year 2000 Waiver Process Review




 Lengthy Waiver Process                 Waiver turnaround time starts from when the request leaves
                                        the examiner or credit union, is processed through the
regional office, processed in E&I, returned to the regional office, and the regional director letter
is finalized and sent to the credit union. This process often takes up to and in excess of sixty
days. In some cases, the extension period had already expired by the time the waiver approval
was communicated to the credit union.

For quality control purposes the waiver process features a review by the district examiner, the
regional office and the central office. The process ensures a good review, however it also slows
down the process. E&I instituted a streamlined waiver approval process in January 1999.
However, as the volume and complexity of the cases have increased, the backlog and total
process time has increased. Processing time in E&I alone for the first fifty extensions and waiver
actions were completed in seven days on average. However, the last fifty extensions and waiver
actions were completed in 24 days on average. As the numbers and complexities of waiver
actions increase so does the backlog. The December 1998 backlog in E&I was thirty five actions,
while the February 1999 backlog was fifty actions.

Turnaround time is particularly significant to ensure that the action is received at the credit union
in a timely manner to ensure corrective action. Also, milestone dates in 1999 are progressively
closer together with testing to be completed by June 30th and implementation to be completed by
July 31st.

A waiver/extension request can originate from the credit union or district examiner assigned the
credit union following guidance provided to the credit union. The waiver/extension
documentation package is forwarded to the regional office for review and concurrence. Reasons
for waivers include not meeting benchmark dates or not meeting Letters of Understanding and
Agreement prepared during examinations. The regional office Y2K specialist reviews the
request, prepares a draft Regional Director Letter that will accompany the waiver package, and
sends the package to Office of Examination and Insurance Risk Management Division (E&I) for
concurrence. E&I concurs or requests inclusion of additional requirements to approve the
waiver and returns the approved package to the regional office. Most waiver/extension requests
are ultimately approved by the region and E&I. After the approved request is returned to the
region, the Y2K specialist prepares the final Regional Director Letter and sends the letter
including the approved waiver to the credit union for signature acceptance by the credit union.
Outstanding waivers are to be monitored for compliance by the regional office.

NCUA granted 83 waivers through 9/3/98. Seventy-two waivers were granted for extensions of
assessment dates, and 11 waivers were granted for extensions of renovation and testing dates (due
to computer system conversions). Requests for waivers and extensions increased the latter part
of 1998 and 1999. As of December 1998, 287 waivers/extensions were received by E&I; and as
of February 1999 a total of 437 waivers/extensions have been received.




                                                  4
                                OIG Year 2000 Waiver Process Review




 FISCUs Need Increased Attention                 At the time of our review, in two of the three
                                                 regions there were fewer waiver/extension
requests as a percentage of federally insured state chartered credit unions (FISCUs) compared to
Federal credit unions (FCUs). At the same time there was a larger percentage of FISCUs that
were not one hundred percent renovated, as compared to FCUs. One large information system
vendor with clients not fully renovated as of January 31, 1999, indicated that 43 of the 70 clients
served by the vendor were FISCUs. The identified clients are potential candidates for an
approved blanket waiver, but had not been previously identified as needing a waiver. While our
review sample focused primarily on FCUs, the information mentioned above is troubling and
indicates that increased attention may need to be devoted to FISCUs.

National and regional guidance regarding the waiver process were provided to the State
Supervisory Authorities (SSAs) responsible for the regulation of FISCUs. In addition some SSAs
have received training by NCUA staff. Regional staff maintain a close relationship with the SSA
regarding safety and soundness and Y2K issues. The respective SSA is responsible to ensure
Y2K readiness in state chartered credit unions. In some instances joint SSA and NCUA
examinations and Y2K reviews are performed. During our review we saw no direct evidence of a
lack of regulatory Y2K effort by SSAs in FISCUs.


                      MATTERS FOR CONSIDERATION
As a result of our limited review of the Y2K waiver process, the OIG is suggesting the following
actions as matters for consideration by the NCUA Board and agency management:

• Waiver/extension actions should not be removed prior to the completion of the requested and
  approved action to ensure that action is completed.

• Develop stronger monitoring and follow-up documentation of waiver/extension actions.

• To decrease waiver/extension turnaround time and reduce backlog of actions, consideration
  should be given to decentralizing the individual credit union waiver process. Specific
  guidelines to ensure consistency in regional application and monitoring by the Office of
  Examination and Insurance should be utilized for quality control purposes.

• The Office of Examination and Insurance should continue to process and approve blanket
  waivers for information system vendors to ensure consistency of application. E&I should
  continue to delegate the assignment of individual credit union blanket waiver/extension dates
  to the regional offices since the regions are more familiar with the requirements of assigned
  credit unions.

• NCUA should place increased attention on the progress of FISCUs in order to identify and
  resolve Y2K problems in a timely manner.

                                                 5
